Department of Health and Human Services 

                    OFFICE OF 

               INSPECTOR GENERAL 





  CHERRY STREET HEALTH 

    SERVICES CLAIMED 

UNALLOWABLE COSTS UNDER 

  RECOVERY ACT GRANTS 





  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.Affairs@oig. hhs.gov.




                                         Sheri L. Fulcher 

                                     Regional Inspector General 


                                              March 2013 

                                             A-05-12-00008 

                    Office ofInspector General
                                     https:/ / oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare ofbeneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office ofEvaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations

The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices 


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig. hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to non-profit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Cherry Street Health Services (Cherry Street) is a non-profit organization offering
comprehensive health services to low-income children and families. Its mission is to improve
the health and wellness of individuals by providing comprehensive primary and behavioral
health care while encouraging access by those who are underserved.

HRSA awarded Cherry Street $2,433,168 in CIP and IDS grant funds, with grant performance
periods starting as early as March 27, 2009, and ending as late as December 31, 2011. Cherry
Street claimed $2,433,168 under the grants as of September 30, 2011.

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS awards to non-profit organizations, institutions of higher
education, hospitals and commercial entities. As a non-profit organization in receipt of Federal
funds, Cherry Street must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles
for Non-Profit Organizations (Office of Management and Budget Circular A-122), incorporated
by reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award’s objectives.

OBJECTIVE

Our objective was to determine whether costs claimed by Cherry Street were allowable under the
terms of the grants and Federal regulations.
                                               i
SUMMARY OF FINDINGS

Of the $1,200,794 in costs covered by our review, Cherry Street claimed $1,036,511 that was
allowable under the terms of the grant and applicable Federal regulations. However, Cherry
Street claimed Federal grant expenditures totaling $30,407 that were unallowable. The
unallowable costs consist of salaries and wages ($17,491), fringe benefits ($8,633), supplies
($3,596), travel ($426), and meals ($261). We could not determine the allowability of the
remaining costs, totaling $133,876, consisting of certain salary and wage costs that Cherry Street
charged against its IDS grant.

Cherry Street did not ensure that its payroll distribution and financial reporting procedures
complied with Federal requirements. Specifically, we determined that:

      salaries and wages were not adequately supported by personnel activity reports,

      expenditures were allocated to employees who did not work on the grants,

      expenditures were calculated incorrectly, and

      expenditures were not adequately supported by receipts.

RECOMMENDATIONS

We recommend that HRSA:

      either require Cherry Street to refund $133,876 to the Federal Government or work with
       Cherry Street to determine whether any of these costs were allowable,

      require Cherry Street to refund salary and wage costs of $17,491,

      require Cherry Street to refund fringe benefit costs of $8,633,

      require Cherry Street to refund supply costs of $3,596,

      require Cherry Street to refund travel costs of $426,

      require Cherry Street to refund meal costs of $261, and

      require Cherry Street to maintain personnel activity reports in accordance with Federal
       regulations.




                                                 ii
GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Cherry Street agreed with the report findings and has
taken corrective action to resolve the noted issues. However, Cherry Street did not concur with
the first recommendation to refund $133,876 to the Federal Government. Cherry Street stated
that documentation is available to support the actual activity of the medical providers. The
medical providers charged time was spent solely on health care services and their time was not
split to any other funding services. However, we found that Cherry Street did not document the
total activity for which the employee was compensated, or identify and segregate non-Federal
activity. We encourage Cherry Street to work with HRSA to determine the allowability of these
costs and ensure revised policies comply with Federal regulations.

Cherry Street’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                               iii
                                                  TABLE OF CONTENTS


                                                                                                                                  Page

INTRODUCTION...................................................................................................................1 


          BACKGROUND ..........................................................................................................1         

              The Health Center Program ..............................................................................1


              American Recovery and Reinvestment Act Grants ..........................................1 

              Cherry Street Health Services...........................................................................1 

              Federal Requirements for Grantees ..................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2 

               Objective ...........................................................................................................2        

               Scope.................................................................................................................2       

               Methodology .....................................................................................................2            


FINDINGS AND RECOMMENDATIONS .........................................................................3 


          UNALLOWABLE AND POTENTIALLY UNALLOWABLE
          EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT.......................3 

               Federal Requirements .......................................................................................3             

               Expenditures for the Increased Demand for Services Grant .............................4 

               Expenditures for the Capital Improvement Grant .............................................5 


          RECOMMENDATIONS ..............................................................................................5                


          GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL 

          RESPONSE...................................................................................................................6   


          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS......6 


APPENDIXES:

          A: GRANTEE COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                    iv
                                             INTRODUCTION 


BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to non-profit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Cherry Street Health Services

Cherry Street Health Services (Cherry Street) is a non-profit organization offering
comprehensive health services to low-income children and families. Its mission is to improve
the health and wellness of individuals by providing comprehensive primary and behavioral
health care while encouraging access by those who are underserved.

HRSA awarded Cherry Street $2,433,168 in CIP and IDS grant funds, with grant performance
periods starting as early as March 27, 2009, and ending as late as December 31, 2011. Cherry
Street claimed $2,433,168 under the grants as of September 30, 2011.1




1
 Specifically, Cherry Street claimed $1,827,555 under the CIP grant and $605,613 under the IDS grant during this
period.
                                                        1

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS awards to non-profit organizations, institutions of higher
education, hospitals and commercial entities. As a non-profit organization in receipt of Federal
funds, Cherry Street must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles
for Non-Profit Organizations (Office of Management and Budget Circular A-122), incorporated
by reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award’s objectives.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by Cherry Street were allowable under the
terms of the grants and Federal regulations.

Scope

We reviewed selected costs of $959,145 under the CIP grant and $241,649 under the IDS grant,
or $1,200,794 of the total of $2,433,168, claimed by Cherry Street for these grants during grant
performance periods starting as early as March 27, 2009, and ending as late as December 31,
2011. We limited our review of internal controls to those that pertained directly to our objective.

We performed fieldwork at Cherry Street’s administrative offices in Grand Rapids, Michigan, in
October and November 2011.

Methodology

To accomplish our objective, we:

    		 reviewed relevant Federal laws, regulations, Notices of Awards and guidance;

    		 identified expended funds in Cherry Street’s accounting records as of September 30,
        2011;

    		 selected and reviewed a judgmental sample of 75 transactions totaling $1,200,794, based
        on transaction amount, description, and timing of costs;

    		 reconciled grant expenditures recorded in the accounting records to quarterly Recovery
        Act Section 1512 reports;2

2
  The purpose of the quarterly Recovery Act Section 1512 report is for recipients to report total Recovery Act funds
invoiced and received.
                                                         2

   		 compared budgeted and actual expenditures to determine whether Cherry Street should
       have requested prior approval to rebudget costs;

   		 reconciled grant draw downs to grant expenditures; and

   		 reviewed selected costs claimed under the grant for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Of the $1,200,794 in costs covered by our review, Cherry Street claimed $1,036,511 that was
allowable under the terms of the grant and applicable Federal regulations. However, Cherry
Street claimed Federal grant expenditures totaling $30,407 that were unallowable. The
unallowable costs consist of salaries and wages ($17,491), fringe benefits ($8,633), supplies
($3,596), travel ($426) and meals ($261). We could not determine the allowability of the
remaining costs, totaling $133,876, consisting of certain salary and wage costs that Cherry Street
charged against its IDS grant.

Cherry Street did not ensure that its payroll distribution and financial reporting procedures
complied with Federal requirements. Specifically, we determined that:

   		 salaries and wages were not adequately supported by personnel activity reports,

   		 expenditures were allocated to employees who did not work on the grants,

   		 expenditures were calculated incorrectly, and

   		 expenditures were not adequately supported by receipts.

UNALLOWABLE AND POTENTIALLY UNALLOWABLE EXPENDITURES
CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR pt. 230, Appendix A, § A.2, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR pt. 230, Appendix B, § 8.m(1), the distribution of
salaries and wages must be supported by personnel activity reports, unless the cognizant agency
(the Federal agency responsible for negotiating and approving indirect cost rates) has approved a

                                                 3

substitute system in writing. The activity reports maintained by non-profit organizations must
meet the following standards:

   		 reflect an after-the-fact determination of the actual activity of each employee,

   		 account for the total activity for which each employee is compensated,

   		 be signed by the employee or by a responsible supervisory official having firsthand
       knowledge of the activities performed, and

   		 be prepared at least monthly and coincide with one or more pay periods.

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that provide for, among other things:

   		 Accurate, current, and complete disclosure of the financial results of each HHS-
       sponsored project or program in accordance with the reporting requirements set forth in
       45 CFR §74.52.

   		 Records that identify adequately the source and application of funds for HHS-sponsored
       activities.

   		 Comparison of outlays with budgeted amounts for each award.

   		 Written procedures for determining the reasonableness, allocability, and allowability of
       costs in accordance with the provisions of the applicable Federal cost principles and the
       terms and conditions of the award.

Pursuant to 2 CFR pt. 230, Appendix A, § A.2.a, to be allowable under an award, grantee costs
must be reasonable for the performance of the award and be allocable thereto under these
principles.

Expenditures for the Increased Demand for Services Grant

Salary and Wage Costs

Cherry Street did not maintain personnel activity reports to support salary and wage costs that it
charged to the IDS grant. Therefore, we could not determine whether $133,876 in salaries and
wages that Cherry Street charged to the IDS grant were allowable.

Cherry Street did not record, on at least a monthly basis, the actual work performed by staff and
did not identify and segregate non-Federal activity.



                                                 4

Cherry Street made an error posting the April 2010 payroll accrual that resulted in overcharging
the grant $17,491. The monthly accrual should have been a credit for $12,019 and not a debit for
$5,472.

Fringe Benefit Costs

Cherry Street claimed $8,633 for fringe benefit costs charged to the IDS grant. These costs were
not allocable to the grant because they were for an employee who did not work on the grant.
Also, a portion of these costs were identified by Cherry Street as costs that should not be charged
to the IDS grant.

Supply Costs

Cherry Street claimed $3,596 for supply costs charged to the IDS grant that were not reasonable
to be charged to the grant. An incorrect number of office visits was applied to the rate to
calculate the supply costs.

Travel Costs

Cherry Street claimed $426 for travel costs charged to the IDS grant. These costs were not
allocable to the grant because they were for an employee who did not work on the grant.

Expenditures for the Capital Improvement Grant

Meal Costs

Cherry Street claimed $261 for meals charged to the CIP grant. These costs were not adequately
supported.

RECOMMENDATIONS

We recommend that HRSA:

      either require Cherry Street to refund $133,876 to the Federal Government or work with
       Cherry Street to determine whether any of these costs were allowable, 


      require Cherry Street to refund salary and wage costs of $17,491, 


      require Cherry Street to refund fringe benefit costs of $8,633, 


      require Cherry Street to refund supply costs of $3,596, 


      require Cherry Street to refund travel costs of $426, 



                                                 5

   		 require Cherry Street to refund meal costs of $261, and

   		 require Cherry Street to maintain personnel activity reports in accordance with Federal
       regulations.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Cherry Street agreed with the report findings and has
taken corrective action to resolve the noted issues. However, Cherry Street did not concur with
the first recommendation to refund $133,876 to the Federal Government. Cherry Street stated
that documentation is available to support the actual activity of the medical providers. The
medical providers charged time was spent solely on health care services and their time was not
split to any other funding services. However, we found that Cherry Street did not document the
total activity for which the employee was compensated, or identify and segregate non-Federal
activity. We encourage Cherry Street to work with HRSA to determine the allowability of these
costs and ensure revised policies comply with Federal regulations.

Cherry Street’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                               6

APPENDIXES


                                                                                                                    Page 1 of3


                          APPENDIX A: GRANTEE COMMENTS 





/'\ ---- . ~ ~-- ~                           11. -~ t~\ ~ --- .. - _,
c..,....1'\er r 'f :::>""1 r ee1             n e~n 1'\ ::>er v tee':>

Heart ot the City Heolth Center
100 C horry Sfroof SF. G.-ond Ropld~ Ml49503
Phunu 616.965.8200 • Fox 616.940.5366




Junuary II. 2013


Ms. Sheri Fulcher
Regional Inspector General for Audit Services
DllllS/Ollice of Inspector Generol
Office ofAudit Services, Region V
233 N011h Michigan, Suite 1360
Chicago, JL 60601

             Rc:   Report Number: A-05-12-00008

Dear Ms. Fulcher:

I am in receipt ofyour draft report entitled "Cherry Street llealth Services Claimed
Unnllownhlc Costs under Recovery Act Gmnts."

On behnlf of the Boru·d of Directors of Cherry Strcct Health Services (Cherry Stroct), 1 wnntto
thank you for the opportunity to respond and provide comments 011 the abnve-referenced dralt
report. On balance, we agree with the findings of the report and have taken corrective action
to resolve the issues identified by your office.

We do, however. take exception to the first recommendation thai our funding agency. the
i I.~alti1
       R.e.'i:uUrCC.S itmJ ServiCe.~ AJ.uini~triiil(m (i iRSi\) "[c:JiihC:•· 1"t:4u1re ChC:ITY ~ireC:t u,
refund $1:1.1,876 to the Federal Government or work with Cherry Street to determine whether
nny ofthcsc cost~ were nllowablc." While we certainly welcome the oppoo1unity to work with
HRSA to resolve auy questions thnt it mny hove about the usc of Recovery Act funds, we
believe that this finding should be removed fur the rcasull!! diso:usscd below.

1\.          Rnckgronnd

On March 13, 2009, Cherry Stro:ct applied to the Hcal!h Resources and Services Administration
("HRS/\") fur IUS funds and, in that application, proposed to usc IUS funds consistently w ith
the stated purposes of that progrum: adding new providers, expunding hours of opemtion,
nndlor cxpnnding existing hcnlth center seo·vices. Specilict~lly, we pOinted out in our
application that there bad been cxtl'llordinary growth in our patient pOpulation, partic\olao·ly




                                                                                                            nalwc!'!e
                                                                                                                     Page 2 of3




uninsured and that there was a severe shortage of dentists that serve the uninsured and
underinsured in Kent County.

In response to these needs, we proposed hiring new personnel with a focus on dental services
(two dentists and a hygienist) as well as one physician and other support staff. We explained
that the IDS funds would help to offset the statt-up costs ofhiring these new providers and
would also help make our current staff more efficient.

Cherry Street subsequently received an IDS grant in the amount ofom· full IDS allotment,
$605,613.00, for a two-year project period (March 27,2009 through March 26, 2011) and
program income of$435,732. We used the IDS f·unds and program income during this two
year grant period to successfully expand services by hiring the additional staff as detailed in our
application. Notably, those hires included one physician, two dentists and a dental hygienist.
The salaries and fringe benefits tor these tour positions alone exceeded the amount of the
federal shar,e of the IDS grant by over $150,000.

B.       Documentation of Personnel Cost under OMB Circular A-122

The draft audit finding stated: "Cherry Street did not maintain perso£mel activity reports to
support salary and wage costs that it charged to the IDS grant. Therefore, we could not
determine whether $133,876 in salaries and wages that Cherry Street charged to the IDS grant
were allowable."

While we agree that Cherry Street did not have a docwnent entitled "personal activity report,"
we believe that there is available documentation, contemporaneously prepared, of the "actual
activity" of the four providers hired under the IDS grant that meets federal standards as
interpreted by the HHS Departmental Appeals Board ("HHS DAB") for distributing the cost of
those providers to the grant 1                    .


Ofsignificance, all four providers spent their time on one activity: the provision ofhealth care
services. ln other words, the physician provided medical services; the dentists and hygienist
provided dental services. They did not split their time between different funding sources or
activities. Thus, to charge the -cost of these employees to the IDS grant, Cherry Street must    .
have documentation consistent with the A-122 standard.s showing that these providers delivered
health care services during the grant period. Stated otherwise, there is no need for a
"distribution" oftimc between various activities since the providers only engaged in one
activity: the delivery ofhealth care services.

As noted in your report, to charge personnel costs to a federal grant, the grantee must have
records satisfying the four.documentation standards found in OMB Circular A-122. Those
records must:                                      ·
         1. t·eflcct an after-the-fact determination ofthe actual activity ofeach employee;


1
  111e other costs of the IDS grant activities can be paid out ofavailable program income. Those costs aTe not, as
provided for in the Section 330 statute, subject to the requirements ofCircular A·l22.
                                                                                                             Page 3 of3




         2. 	 accmmt for the total activity for which employees are compensated;
         3. 	 be signed by the employee or by a supervisory official with first-hand
              knowledge of the employee's activities; and
         4. 	 be prepared at least monthly and coincide with pay periods.
2 C.F.R. Part 230, App. B, para. 8.m.2(a)-(d).
        We believe .the process that Cherry Street follows to generate. and submit billable
encounters meet these standards. First, the encounters are generated after health care
services are provided. That is, a provider sees a patient and then signs the encotmter form
either by hand or electronically. Based on that form, Cherry Street generates an
encounter that, ifpossible, is billed to a payor. 2 Second, this process of generating
encounters provides ample verification of the actual (and total) activities of each provider
on a daily basis. Third, the encounter form is signed by the provider (the employee).
Finally, the encotmter forms are completed after each patient visit, easily meeting the
monthly preparation requirement. It is our m1derstanding that such documentation,
contemporaneously prepared, would meet the standards articulated in various decisions
of the HHS DAB for alternative docmnentation.

       In shmt, the process that Cherry Street follows to document patient encounters
provides sufficient documentation, generated at the time the work was performed, to
support Cherry Street's claim to the full amount of the federal share of the IDS grant.
Accordingly, we believe that the questioned cost finding should be removed.

        We would note also that the report also contains a finding that Cherry Street work
with HRSA to "maintain personnel activity repmis in accordance with Federal
regulations." We believe this finding is sufficient to support the concerns raised by your
office in its audit and we fully intend to work with HRSA to revise and update our
systems for charging personnel costs to our federal awards. We simply do· not believe
that questioning $133,876 in charges to the IDS grant is warranted ol'necessary.

        Please do not hesitate to call me if you have any questions.


                                                     Sincerely,



                                                     Chris Shea




2
  Under Section 330, Health Centers like Cherry Street are obligated to maximize reimbursement from
Medicare, Med.icaid and third-party payors. However, many of Chen·y Street's patients are uninsured and ,
in such a case, will pay· reduced rates based on level of income. ln all cases, encounters are counted and
reported to HRSA via the "UDS" form.
                                                                                                    Page 1 of3


APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION 

                       COMMENTS 





    TO: 	        Inspector General

    FROM: 	      Administrator

    SUBJECT : 	OIG Draft Report: "Cherry Street Health Services Claimed Unallowable Costs
               Under Recovery Act Grants" (A-05-1 2-00008)

    Attache d is the Health Resources and Services Administration' s (HRSA) response to the OIG's
    draft report, "Cherry Street Health Services Claimed Unallowable Costs Under Recovery Act
    Grants" (A-05-12-00008). Ifyou have any questions, please contact Sandy Seaton in HRSA's
    Office of Federal Assistance Management at (30 1) 443-2432.




                                               Mary K. Wakefield, Ph.D., R.N.

    Attachment
                                                                                                  Page 2 of3




  Health Resources and Services Administration's Comments on the OIG Draft Report ­
 "Cberry Street Health Services Claimed Unallowable Costs Under Recovery Act Grants"
                                    (A-05-12-00008)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office oflnspector General (OIG)
draft recommendations are as follows:

OIG Recommendation:

We recommend that HRSA either require Cherry Street to refund $133,876 to the Federal 

Government or work with Cherry Street to determine whether any of these costs were allowable. 


HRSA Response: 


HRSA concurs with OIG' s recommendation. HRSA will work with Cherry Street Health 

Services (Cherry Street) to determine the amount of unallowable costs charged against the 

HRSA grants. 


OIG Recommendation: 


We recommend that HRSA require Cherry Street to refund salary and wage costs of$17,491. 


HRSA Response: 


HR.SA concurs with OIG's recommendation. HR.SA will work with Cherry Street to determine 

the amount of unallowable costs charged against the HR.SA grants. 


OIG Recommendation:

We recommend that HR.SA require Cherry Street to refund fringe benefit costs of$8,633. 


HRSA Response: 


IIR.SA concurs with OIG's recommendation. HRSA will work with Cherry Street to determine 

the amount of unallowable costs charged against the HR.SA grants. 


OIG Recommendation: 


We recommend that HR.SA require Cherry Street to refund supply costs of$3,596. 


HRSA Response: 


HRSA concurs with OIG's recommendation. HRSA will work with Cherry Street to determine 

the amount of unallowable costs charged against the HRSA grants.
                                                                                         Page 3 of3




OIG Recommendation:

We recommend that HRSA require Cherry Street to refund travel costs of$426.

HRSA Response:

HRSA concurs with OIG's recommendation. HRSA will work with Cherry Street to determine
the amount of unallowable costs charged against the HRSA grants.

OIG Recommendation:

We recommend that HRSA require Cherry Street to refund meal costs of$261.

HRSA Response:

HRSA concurs with OIG's recommendation. HRSA will work with Cherry Street to determine
the amount of unallowable costs charged against the HRSA grants.

OIG Recommendation:

We recommend that HRSA require Cherry Street to maintain personnel activity reports in
accordance with Federal regulations.

HRSA Response:

HRSA concurs with OIG's recommendation. HRSA will ensure that Cherry Street maintains
personnel activity reports in accordance with federal regulations.
